No.

In the
Supreme Court of the United States
SARASOTA WINE MARKET, LLC, et al.,
Petitioners,
v.
ERIC S. SCHMITT,
ATTORNEY GENERAL OF MISSOURI, et al.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

PETITION FOR WRIT OF CERTIORARI

James A. Tanford
(Counsel of Record)
Robert D. Epstein
James Porter
Joseph Beutel
Epstein Cohen Seif & Porter
50 S. Meridian St, Ste 505
Indianapolis IN 46204
tanford@indiana.edu
(812) 332-4966
Counsel for Petitioners.

i
QUESTION PRESENTED
In a long line of cases, this Court has repeatedly
held that the states’ Twenty-first Amendment
authority to regulate the distribution of alcohol is
limited by the nondiscrimination principle of the
Commerce Clause. Tenn. Wine & Spirits Retailers Ass’n
v. Thomas, 139 S.Ct. 2449, 2470 (2019); Granholm v.
Heald, 544 U.S. 460, 487 (2005); Healy v. Beer Inst.,
491 U.S. 324, 342 (1989); Bacchus Ltd. v. Dias, 468
U.S. 263, 276 (1984). Departing from these precedents,
the Eighth Circuit held that Missouri’s law prohibiting
out-of-state wine retailers from participating in its
online market was protected by the Amendment and
immune from Commerce Clause scrutiny because
physical presence in a state is an inherent prerequisite
to effective regulation. The question, upon which the
lower courts disagree, is:
When considering both the Twenty-first Amendment and the Commerce Clause, may Missouri ban
out-of-state wine retailers from participating in its
online market when nondiscriminatory alternatives
are available that would serve its regulatory interests?

ii
PARTIES TO THE PROCEEDINGS
Petitioners are Sarasota Wine Market, LLC, d/b/a
Magnum Wine and Tastings, Heath Cordes, Michael
Schlueter and Terrance French. They were PlaintiffsAppellants below.
Respondents are Eric S. Schmitt, Attorney
General of Missouri, Dorothy Taylor, Supervisor of the
Division of Alcoholic Beverage Control, and Michael L.
Parson, Governor of Missouri, in their official
capacities. They were Defendants-Appellees below.
CORPORATE DISCLOSURE STATEMENT
Petitioner Sarasota Wine Market, LLC, has no
parent corporation and there is no publicly held
company that owns 10% or more of its stock.
RELATED PROCEEDINGS
Sarasota Wine Market, LLC v. Parson, No. 4:17-cv02792, U. S. District Court for the Eastern District of
Missouri. Judgment entered March 29, 2019.
Sarasota Wine Market, LLC v. Schmitt, No. 19-1948,
U.S. Court of Appeals for the Sixth Circuit. Judgment
entered February 16, 2021. Rehearing denied March
24, 2021.

iii
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . iv
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS . . . . . 1
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . 2
REASON FOR GRANTING THE PETITION:
The Eighth Circuit decision conflicts with cases
from this Court and other circuits . . . . . . . . . . . . . . 4
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
APPENDIX A. Opinion of the Eighth Circuit Court
of Appeals, February 16, 2021 . . . . . . . . . . . . . . . . 1a
APPENDIX B. Opinion of the District Court for the
Eastern District of Missouri, March 29, 2019. . . . 26a
APPENDIX C. Order of the Eighth Circuit denying
rehearing, March 24, 2021 . . . . . . . . . . . . . . . . . . 43a
APPENDIX D. Relevant provisions of the Missouri
Liquor Control Act, MO. REV. STAT. ch. 311. . . . . 44a

iv
TABLE OF AUTHORITIES
CASES:
Anvar v. Tanner, 1:19-cv-00523 (D.R.I.) . . . . . . . . . 9
Arnold’s Wines, Inc. v. Boyle, 571 F.3d 185
(2d Cir.2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
B-21 Wines, Inc. v. Guy, 3:20-cv-00099 (W.D.N.C.) . 9
Bacchus Ltd. v. Dias, 468 U.S. 263 (1984) . . . . . . 4, 5
Bernstein v. Graziano, 2:19-cv-14716 (D.N.J.) . . . . . 9
Block v. Canepa, 2:2–cv-03686 (S.D.Oh.) . . . . . . . . . 9
Brooks v. Vassar, 462 F.3d 341 (4th Cir.2006) . . . . 6
Byrd v. Tenn. Wine & Spirits Retailers Assoc.,
883 F.3d 608 (6th Cir.2018) . . . . . . . . . . . . . . . . . . . 7
Chicago Wine Co. v. Holcomb, 1:19-cv-02785
(S.D. Ind.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Cooper v. Tex. Alcoholic Beverage Comm'n,
820 F.3d 730 (5th Cir.2016) . . . . . . . . . . . . . . . . . . . 7
Granholm v. Heald, 544 U.S. 460 (2005) . . . . passim
Healy v. Beer Inst., 491 U.S. 324 (1989) . . . . . . . . . 4
Lebamoff Enterpr., Inc. v. O’Connell, No. 1:16-cv08607 (N.D. Ill.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Lebamoff Enterpr., Inc. v. Rauner, 909 F.3d 847
(7th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Lebamoff Enterpr., Inc. v. Whitmer, 956 F.3d 863
(6th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

v
Peoples Super Liquor Stores, Inc. v. Jenkins,
432 F.Supp.2d 200 (D. Mass. 2006) . . . . . . . . . . . . . 7
Sarasota Wine Market, LLC v. Parson,
381 F.Supp. 3d 1094 (E.D. Mo. 2019) . . . . . . . . . . . . 3
Sarasota Wine Market, LLC v. Schmitt, 987 F.3d
863 (8th Cir. 2021) . . . . . . . . . . . . . . . . . . . . . . . . 4, 5
Siesta Vill. Mkt., LLC v. Granholm, 596 F.Supp.2d
1035 (E.D. Mich. 2008) . . . . . . . . . . . . . . . . . . . . . . . 7
Southern Wine & Spirits of Am., Inc. v. Div.
of Alco. & Tobacco Control, 731 F.3d 799
(8th Cir.2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 6
Tannins of Indianapolis, LLC v. Taylor, 3:19-cv00504 (W.D. Ky.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Tenn. Wine & Spirits Retailers Ass’n v. Thomas,
139 S.Ct 2449 (2019) . . . . . . . . . . . . . . . . . . . . passim
CONSTITUTIONS, STATUTES AND RULES:
U.S. Const., Art. I, § 8, cl. 3, . . . . . . . . . . . . . . passim
U.S. Const., Amend. XXI, § 2 . . . . . . . . . . . . . passim
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Mo. Rev. Stat. § 311.050 . . . . . . . . . . . . . . . . . . . . . . 2
Mo. Rev. Stat. § 311.060 . . . . . . . . . . . . . . . . . . . . . . 2
NY Assembly Bill A00895, https://nyassembly.
gov/leg/?default_fld=&leg_video=&bn=A00895&
term=2021&Summary=Y&Text=Y . . . . . . . . . . . . . 8

vi
MISCELLANEOUS:
Dave McIntyre, Buying wine online is another
pandemic-era shift that’s poised to stick around,
WASH. POST (MAY 14, 2021); https://www.wash
ingtonpost.com/food/2021/05/14/online-winebuying-trends/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Nat’l Ass’n of Wine Retailers, Lessons from the
New Hampshire wine shipping debacle, https://nawr.
org/ lessons-from-the-new-hampshire-wineshipping-debacle/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Charles Riley, Online shopping has been
turbocharged by the pandemic. There’s no going
back, CNN BUSINESS (October 13, 2020), https://
www.cnn.com/2020/10/11/investing/stocks-weekahead/index.html . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Lucas Roh, How best to adapt your business when
the world is moving online, FORBES (June 1, 2020),
https:// www.forbes.com/sites/forbestechcouncil/
2020/06/01/how-to-best-adapt-your-business-when
-the-world-is-moving-online/?sh=3888672f7b9e . . . 9
Unif. Law Comm’n, June Report (2019), https://
www.uniformlaws.org/viewdocument/2019-junereport-to-scope-and-pro . . . . . . . . . . . . . . . . . . . . . . . 9

1
PETITION FOR A WRIT OF CERTIORARI

OPINIONS BELOW
This petition seeks review of the decision of the
United States Court of Appeals for the Eighth Circuit
in Sarasota Wine Market, LLC v. Schmitt, (App., infra,
1a-25a), reported at 987 F.3d 1171. The opinion and
order of the United States District Court for the
Eastern District of Missouri (App., infra, 26a-42a), is
reported at 381 F.Supp. 3d 1094.
JURISDICTION
The opinion of the court of appeals was entered on
February 16, 2021. A petition for rehearing was denied
on March 24, 2021 (App., infra, 43a). This Court has
jurisdiction under 28 U.S.C. § 1254(1) to hear this case
by Writ of Certiorari.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

A. The Commerce Clause, U.S. CONST., Art. I, § 8,
cl. 3: The Congress shall have Power... To regulate
Commerce with foreign Nations, and among the
several States, and with the Indian Tribes.
B. The 21st Amendment, U.S. CONST., Amend.
XXI, § 2: The transportation or importation into any
State, Territory, or possession of the United States for
delivery or use therein of intoxicating liquors, in
violation of the laws thereof, is hereby prohibited.
C. MO. REV. STAT. §§ 311.050, 311060: Reprinted in
the Appendix, infra, 44a.

2
STATEMENT OF THE CASE
This case challenges the constitutionality of
Missouri’s law that prohibits out-of-state wine retailers
from participating in its online market. Only Missouri
citizens can get retailer licenses, and only in-state
retailers may take internet orders and ship wine to
consumers. MO. REV. STAT. §§ 311.050, 311.060(1),
(App. infra 44a). This difference in treatment
violates the Commerce Clause because it discriminates
against interstate commerce and protects local
businesses from competition. It is not saved by the
Twenty-first Amendment because the ban advances no
state interest that could not be served by nondiscriminatory alternatives.
In Granholm v. Heald, 544 U.S. 460 (2005), this
Court declared unconstitutional two state laws that
prohibited out-of-state wineries from shipping to
consumers but allowed in-state wineries to do so. The
Court said that the nondiscrimination principle of the
Commerce Clause applies to state liquor laws, so that
if a State chooses to allow the direct shipment of wine,
it must do so on evenhanded terms. Id. at 492-93. In
the sixteen years since then, forty-four states have
modernized their beverage laws to allow both in-state
and out-of-state wineries to sell and ship to consumers.
The states have been slower to modernize their
laws to allow retailers other than wineries to sell wine
online and ship it to consumers. Thirteen states now
permit both in-state and out-of-state wine retailers to
sell online, but many others have repeated the patterns
that existed before Granholm. They have begun
allowing in-state retailers to ship to consumers while

3
continuing to prohibit out-of-state retailers from doing
so. Missouri is one of those states.
Petitioners brought this action in 2017 in the
Eastern District of Missouri under 42 U.S.C. § 1983 to
challenge Missouri’s discriminatory retailer shipping
laws. It is one of a dozen similar cases filed around the
country asking the courts to declare unconstitutional
state laws that allow in-state, but not out-of-state,
retailers to sell online and ship to consumers. The
district court had jurisdiction pursuant to 28 U.S.C. §
1331 which confers original jurisdiction on federal
district courts to hear suits arising under the
Constitution and laws of the United States.
On March 29, 2019, the District Court dismissed
the complaint. Sarasota Wine Market, LLC v. Parson,
381 F.Supp. 3d 1094, 1100-1102 (E.D. Mo., 2019) (App.,
infra, 26a-42a). It relied on an Eighth Circuit case,
Southern Wine & Spirits of Am., Inc. v. Div. of Alco. &
Tobacco Control, 731 F.3d 799 (8th Cir.2013), which
had interpreted Granholm v. Heald narrowly as only
requiring Commerce Clause scrutiny when laws
regulated wine producers, not when they regulated
retailers. The Plaintiffs appealed.
While the appeal was pending, and before any
briefs were filed, this Court effectively overturned
Southern Wine. It held that the nondiscrimination
principle of the Commerce Clause also applied to laws
regulating wine retailers. Tenn. Wine & Spirits
Retailers Ass’n v. Thomas, 139 S.Ct 2449, 2470-71
(2019). The Plaintiffs therefore asked the Eighth
Circuit to reverse the lower court because Southern
Wine was no longer good law.

4
The court of appeals acknowledged that Southern
Wine was no longer good law but affirmed on alternate
grounds. It held that requiring a retailer to have a
physical presence in the state is an inherent
prerequisite to effective regulation, so Missouri’s law
banning out-of-state wine retailers from its online
market was protected by the Twenty-first Amendment
and immune from Commerce Clause scrutiny. Sarasota
Wine Market, LLC v. Schmitt, 987 F.3d 1171, 1182-83
(8th Cir. 2021) (App., infra, 12a-22a).
REASON FOR GRANTING THE PETITION:
The Eighth Circuit decision conflicts with
cases from this Court and other circuits
This Court has repeatedly held that the states’
Twenty-first Amendment authority to regulate the
sale of alcohol is limited by the nondiscrimination
principle of the Commerce Clause. The Amendment did
not “empower States to favor local liquor industries by
erecting barriers to competition.” Bacchus Ltd. v. Dias,
468 U.S. 263, 276 (1984). The Court has struck down
discriminatory liquor laws that imposed a residency
requirement on liquor licenses, Tenn. Wine & Spirits
Retailers Ass’n v. Thomas, 139 S.Ct. 2449, 2470 (2019);
prohibited out-of-state wineries from shipping to
consumers when in-state wineries were allowed to do
so, Granholm v. Heald, 544 U.S. 460, 487 (2005); and
placed restrictions on out-of-state liquor distributors
that were not imposed on local ones. Healy v. Beer
Inst., 491 U.S. 324, 342 (1989) (price controls); Bacchus
Ltd. v. Dias, 468 U.S. at 276 (taxes).
The Eighth Circuit departed from these precedents
and held that Missouri’s discriminatory wine-shipping

5
laws were valid under the Twenty-first Amendment.
Sarasota Wine Market, 987 F.3d at 1182-83. It upheld
the residency requirement for retailer licenses despite
the holding in Tenn. Wine, that a “residency
requirement for retail license applicants blatantly
favors the State’s residents [and] is unconstitutional.”
139 S.Ct. at 2457. It upheld the requirement that an
out-of-state retailer must establish physical presence
in Missouri in order to sell wine online despite the
holding in Granholm v. Heald that “[s]tates cannot
require an out-of-state firm to become a resident in
order to compete on equal terms.” 544 U.S. at 475. It
dismissed the complaint on the pleadings without an
evidentiary record despite the holdings in both Tenn.
Wine, 139 S.Ct at 2474, and Granholm, 544 U.S. at
490, that a discriminatory liquor law could be upheld
only if concrete evidence shows that it advances a
legitimate purpose which could not be served by
nondiscriminatory alternatives. The Eighth Circuit felt
that requiring a retailer to be physically present in the
state and operated by a resident was so obviously
fundamental to effective regulation that these laws
were exempt from Commerce Clause scrutiny
altogether, despite the holding in Bacchus that the two
provisions are “parts of the same Constitution [and]
each must be considered.” 468 U.S. at 275.
This Court has not directly addressed the extent to
which the dormant Commerce Clause constrains the
states’ authority to limit online wine sales to retailers
physically located in the state. The issue should have
been settled by the unambiguous statement in
Granholm v. Heald that authority to regulate alcohol
distribution “is limited by the nondiscrimination

6
principle of the Commerce Clause." 544 U.S. at 487,
and “is not saved by the 21st Amendment.” Id. at 489.
Therefore, “[i]f a State chooses to allow direct shipment
of wine, it must do so on evenhanded terms.” Id. at
492-93.
The lower courts, however, have been confused
about how much meaning to attribute to the dictum in
Granholm that “[w]e have previously recognized that
the three-tier system itself is ‘unquestionably
legitimate.’" Id. at 489. They are divided on whether
this dictum means that the Commerce Clause applies
to a lesser extent and tolerates a greater degree of
discrimination against out-of-state interests when the
state is regulating retail liquor sales than when it is
regulating other aspects of liquor distribution. The
Seventh Circuit has noted:
Some [courts] see Granholm as establishing a
rule immunizing the three-tier system from
constitutional attack so long as it does not
discriminate between in-state and out-of-state
producers or products. The idea is that the
Twenty-first Amendment overrides the
Commerce Clause and permits states to treat
in-state retailers and wholesalers differently
from their out-of-state equivalents. Arnold’s
Wines, Inc. v. Boyle, 571 F.3d 185, 190–91 (2d
Cir.2009); Brooks v. Vassar, 462 F.3d 341, 352
(4th Cir.2006) (Niemeyer, J., writing only for
himself); So. Wine & Spirits of Am., Inc. v. Div.
of Alcohol & Tobacco Control, 731 F.3d 799,
809–10 (8th Cir.2013). More courts have read
Granholm simply to reaffirm a general
nondiscrimination principle, although the

7
principle may carry greater or lesser weight at
different tiers of a three-tier system. Brooks,
462 F.3d at 354; Cooper v. Tex. Alcoholic
Beverage Comm'n, 820 F.3d 730, 743 (5th
Cir.2016); Byrd v. Tenn. Wine & Spirits
Retailers Assoc., 883 F.3d 608, 618 (6th
Cir.2018); Siesta Vill. Mkt., LLC v. Granholm,
596 F.Supp.2d 1035, 1039 (E.D. Mich. 2008);
Peoples Super Liquor Stores, Inc. v. Jenkins,
432 F.Supp.2d 200, 221 (D. Mass. 2006).
Finally, one judge understands Granholm to
preclude any Twenty-first Amendment protection for state laws that otherwise violate the
dormant Commerce Clause. Brooks, 462 F.3d
at 361 (Goodwin, J., concurring in part and
dissenting in part).
Lebamoff Enterpr., Inc. v. Rauner, 909 F.3d 847, 85354 (7th Cir. 2018).
Part of the confusion concerns the level of scrutiny
to give to the state’s purported justification for
discriminating against out-of-state interests. This
Court has articulated a fairly exacting standard
requiring the state to prove with “concrete evidence”
that the discrimination is justified because
nondiscriminatory alternatives would be unworkable.
Granholm, 544 U.S. at 492-93; Tenn. Wine, 139 S.Ct at
2474-75. Some lower courts have applied this standard.
E.g., Lebamoff Enterpr., Inc. v. Rauner, 909 F.3d at
856; Byrd v. Tenn. Wine & Spirits Retailers Assoc., 883
F.3d at 624; Siesta Vill. Mkt., LLC v. Granholm, 596
F.Supp.2d at 1041. The Eighth Circuit and some other
courts have not. E.g., Sarasota Wine Market, 987 F.3d
at 1183-84; Lebamoff Enterp., Inc. v. Whitmer, 956 F.3d

8
863, 869 (6th Cir.2020), cert. denied 141 S.Ct. 1049)
(2021). Some panels have disagreed among themselves.
E.g., Byrd v. Tenn. Wine & Spirits Retailers Assoc., 883
F.3d at 624-26 (applying standard); id. at 636 (Sutton,
J., dissenting).
The question of whether a state may authorize
online wine sales but ban out-of-state retailers from
participating is an important one. Throughout the
country, states are considering how best to balance the
need to regulate wine as an alcoholic beverage against
the growing demand from consumers for online
ordering and home delivery.1 There has been a surge in
online purchases of all kinds of products during the
pandemic,2 and wine is no exception.3 Challenges to
state laws banning direct shipping by out-of-state wine
retailers are pending in seven federal courts. Lebamoff
Enterpr., Inc. v. O’Connell, No. 1:16-cv-08607 (N.D.
1

See Nat’l Ass’n of Wine Retailers, Lessons from the New
Hampshire wine shipping debacle,
https://nawr.org/
lessons- from-the-new-hampshire-wine-shipping-debacle/
(last visited June 4, 2021); NY Assembly Bill A00895,
https:// nyassembly.gov/leg/?default_fld=&leg_video=&bn=
A00895&term=2021&Summary=Y&Text=Y (last viewed
June 4, 2021).
2

Charles Riley, Online shopping has been turbocharged
by the pandemic. There’s no going back, CNN BUSINESS
(October 13, 2020), https://www.cnn.com/2020/10/11/
investing/stocks-week-ahead/index.html (last visited June
4, 2021).
3

Dave McIntyre, Buying wine online is another pandemic-era shift that’s poised to stick around, WASH. POST (MAY
14, 2021); https://www.washingtonpost.com/food/2021/05/
14/online-wine-buying-trends/ (last visited June 27, 2020).

9
Ill.); Chicago Wine Co. v. Holcomb, 1:19-cv-02785 (S.D.
Ind.); Tannins of Indianapolis, LLC v. Taylor, 3:19-cv00504 (W.D. Ky.); B-21 Wines, Inc. v. Guy, 3:20-cv00099 (W.D.N.C.); Bernstein v. Graziano, 2:19-cv-14716
(D.N.J.); Anvar v. Tanner, 1:19-cv-523 (D. R.I.); Block
v. Canepa, 2:20-cv-03686 (S.D. Ohio). The Uniform
Law Commission is attempting create model
legislation on retail wine shipping.4 Retailers are
trying to make decisions about adapting to an online
future.5 This issue needs to be resolved.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari.
Respectfully submitted,
James A. Tanford
(Counsel of Record)
Robert D. Epstein
Epstein Cohen Seif & Porter, LLP
50 S. Meridian St, Ste 505
Indianapolis IN 46204
tanford@indiana.edu
(812) 332-4966
Counsel for Petitioners

4

See https://www.uniform laws.org/viewdocument/2019june-report-to-scope-and-pro. (last viewed June 4, 2021).
5

Lucas Roh, How best to adapt your business when the
world is moving online, FORBES (June 1, 2020), https://
www.forbes.com/sites/forbestechcouncil/2020/06/01/howto-best-adapt-your-business-when-the-world-is-moving-on
line/?sh=3888672f7b9e (last visited June 7, 2021).

1a
APPENDIX A. Opinion of the Court of Appeals
for the Eighth Circuit [Filed Feb. 16, 2021]
Nos. 19-1948
Sarasota Wine Market, LLC, et al.
Plaintiffs-Appellants
v.
Eric S. Schmitt, Attorney General of Missouri, et. al.
Defendants-Appellees
Before Loken, Shepherd, and Erickson, Circuit
Judges.
LOKEN, Circuit Judge.
An amendment to the Missouri Liquor Control Act
permits licensed in-state retailers to deliver alcohol
directly to Missouri consumers. This is an action by
four plaintiffs -- Sarasota Wine Market LLC, a
Florida-licensed wine retailer; Heath Cordes, its
owner-operator; and Michael Schlueter and Terrence
French, two Missouri residents who would like to have
direct delivery of wines not sold in the State
(collectively, “Sarasota”) -- against three Missouri
officials acting in their official capacities -- Attorney
General Eric Schmitt; Dorothy Taylor, Supervisor of
the Missouri Division of Alcohol and Tobacco Control;1
and Governor Michael Parson (collectively, “the
Officials”). Sarasota seeks prospective relief, alleging
that Missouri's liquor control laws, by preventing
out-of-state retailers from shipping directly to Missouri
1

Dorothy Taylor, the current Supervisor, is substituted
as an appellee pursuant to Federal Rule of Appellate
Procedure 43(c).

2a
consumers, discriminate against interstate commerce
and citizens of other States in violation of the
“dormant” Commerce Clause, art. I, § 8, cl. 3, and the
Privileges and Immunities Clause, art. IV, § 2, cl. 1.
The district court2 dismissed Sarasota's Amended
Complaint, concluding it failed to state viable claims
under the Commerce Clause or the Privileges and
Immunities Clause when construed together with
Section 2 of the Twenty-first Amendment. Sarasota
appeals. Concluding their claims are foreclosed by
Supreme Court and circuit precedents that presently
govern these issues, we affirm.
I. Background
Regulation by the States and the federal
government of the manufacture, sale, and
transportation of alcoholic beverages has a long,
turbulent, controversial history, a history that
continues to provoke disagreement among Justices of
the Supreme Court and others. See generally Tenn.
Wine & Spirits Retailers Ass'n v. Thomas, –– U.S. ––,
139 S. Ct. 2449, 2462-70, 204 L.Ed.2d 801 (2019), and
2476-82 (Gorsuch, J., dissenting); Granholm v. Heald,
544 U.S. 460, 476-86, 125 S.Ct. 1885, 161 L.Ed.2d 796
(2005), and 498-514 (Thomas, J., dissenting). Our task
of course is to apply the law as it exists today, not to
take sides on these historical debates, but an
understanding of this history is important in framing
the issues we must decide. Cf. Arnold's Wines, Inc. v.
Boyle, 571 F.3d 185, 192 (2d Cir. 2009) (Calabresi, J.,
concurring); Bridenbaugh v. Freeman-Wilson, 227 F.3d
2

The Honorable Henry Edward Autrey, United States
District Judge for the Eastern District of Missouri.

3a
848, 853 (7th Cir. 2000).
The Eighteenth Amendment, ratified in 1919, was
a rather brief experiment with a nationwide ban on the
“manufacture, sale, or transportation” of alcohol. The
Twenty-first Amendment, ratified in 1933, ended
Prohibition. Section 1 of the Twenty-first repealed the
Eighteenth Amendment. Section 2, which is central to
the issues before us, provides: “The transportation or
importation into any State ... for delivery or use
therein of intoxicating liquors, in violation of the laws
thereof, is hereby prohibited.” (Emphasis added.)
Acting in response to the Twenty-first Amendment,
Missouri promptly enacted the Liquor Control Act.
1933-34 Mo. Laws, Extra Session, pp. 77-95, now
codified at Mo. Rev. Stat. Ch. 311. The Act is “a
comprehensive scheme for the regulation and control of
the manufacture, sale, possession, transportation and
distribution of intoxicating liquor.” John Bardenheier
Wine & Liquor Co. v. City of St. Louis, 345 Mo. 637,
135 S.W.2d 345, 346 (1939).
Prior to Prohibition, some States enacted laws
adopting a “three-tiered distribution model.” A primary
purpose of this model is to prevent a return to “the
English ‘tied-house’ system” in which alcohol producers
monopolized distribution from producer to consumer,
a system widely perceived as causing or at least
contributing to the social ills of excess alcohol
consumption and consumption by minors. See Tenn.
Wine, 139 S. Ct. at 2463 n.7. Under the three-tiered
model,
the producer sells to a licensed in-state
wholesaler, who pays excise taxes and delivers

4a
the alcohol to a licensed in-state retailer. The
retailer, in turn, sells the alcohol to consumers,
collecting sales taxes where applicable.
Arnold's Wines, 571 F.3d at 187. A central feature of
the separated tiers is to prohibit a member of one tier
from having a financial interest in a member of a
higher or lower tier. In the Liquor Control Act,
Missouri -- like many States -- adopted a version of the
three-tiered distribution model in implementing its
authority under Section 2 of the Twenty-first
Amendment. See S. Wine & Spirits of Am., Inc. v. Div.
of Alcohol & Tobacco Control, 731 F.3d 799, 802 (8th
Cir. 2013).3
Though there are no longer completely “dry”
States, some States severely limit liquor sales and
distribution by private individuals and companies. In
Utah, for example, the State is the sole importer and
main retailer of all alcoholic products other than light
beer; in Michigan, the State is the only wholesaler for
liquor but not for wine and beer.4 Missouri, like most
States, permits private retailers to sell alcohol to the
public if they qualify for the appropriate license and
comply with Missouri's three-tier restrictions. See MO.
REV. STAT. §§ 311.050, 311.060.1. Among other

3

Unlike other States, Missouri's system includes a
fourth tier, solicitors who act as brokers between producers
and wholesalers. See MO. REV. STAT. § 311.275. This
distinction does not affect the basic functioning of the tiered
system and we do not address it further. See S. Wine, 731
F.3d at 805 n.3.
4

See UTAH CODE ANN. §§ 32B-2-202, 204, 501, and
32B-7-202; MICH. COMP. LAWS § 436.1231.

5a
qualifications, an individual licensee must be a
“qualified legal voter and a taxpaying citizen of the
county, town, city or village,” while a corporate
licensee's “managing officer” must be a “qualified legal
voter and taxpaying citizen of the county, town, city or
village.” MO. REV. STAT. § 311.060.1. In addition, a
licensed retailer must operate from physical premises
in Missouri named in the license, see MO. REV. STAT. §§
311.220.3, 311.240.3; and must purchase liquor
exclusively from Missouri-licensed wholesalers, MO.
REV. STAT. § 311.280.1.
In 2007, Missouri amended the Liquor Control Act
to allow in-state and out-of-state wine producers to
ship wine directly to Missouri consumers. See MO. REV.
STAT. § 311.185. A later amendment -- a principal focus
of Sarasota's broad challenge in this case -- allows
licensed Missouri in-state retailers to ship wine and
other alcoholic beverages directly to consumers,
provided the sale is made in-person, online, or by
phone at the retailer's licensed premises. See MO. REV.
STAT. § 311.300.2; Mo. Div. of Alcohol & Tobacco
Control, Guidelines for Retailers Who Want to Deliver
Alcohol (2020), citing MO. REV. STAT. § 311.240.3 and
MO. CODE REGS. ANN. tit. 11, § 70- 2.140(11). 5
Sarasota Wine Market is a Florida-licensed wine
retailer doing business as Magnum Wine and Tastings
in Sarasota, Florida. Sarasota Wine has received
orders on its website for direct shipments to Missouri
residents. It declines these sales because it is an
out-of-state retailer with no physical presence in
5

https://atc.dps.mo.gov/IndustryCircular/guidelines-forretailers-to-deliver-4-24-20.pdf (last visited Jan. 28, 2021).

6a
Missouri, and Missouri only permits direct wine
shipments by licensed in-state retailers. Missouri
residents Schlueter and French have attempted to
order wines that Missouri retailers do not carry
directly from out-of-state retailers like Sarasota Wine,
but these retailers refuse to fulfill these orders because
Missouri law prohibits direct shipments to Missouri
consumers. Sarasota Wine and Cordes have not applied
for a Missouri retailer license because they are not
willing to open a physical store in Missouri and
purchase wines sold to Missouri consumers from
licensed Missouri wholesalers.
Sarasota alleges the Chapter 311 restrictions on
out-of-state retailers shipping wine directly to Missouri
consumers, including the residency and physical
presence license requirements, violate the Commerce
Clause because they discriminate against interstate
commerce and constitute protectionism of local
businesses. In addition, Cordes individually alleges
that Missouri's statutory scheme violates the
Privileges and Immunities Clause because Cordes is a
Florida resident being denied a retailer license needed
to practice his trade as a wine merchant in Missouri.
The Officials argue that these regulations are
permissible components of a three-tiered system that
the Supreme Court has blessed as “unquestionably
legitimate” under Section 2 of the Twenty-first
Amendment. Granholm, 544 U.S. at 488-89, 125 S.Ct.
1885. In addition, they argue, Cordes's claim must fail
because selling alcohol is not a fundamental right
protected by the Privileges and Immunities Clause,
and, in any event, the restrictions further legitimate,
non-protectionist public interests.

7a
The district court rejected the Officials’ contention
that the Sarasota plaintiffs lack standing. However,
relying on our interpretation of the Supreme Court's
decision in Granholm in Southern Wine, the court
concluded there is no Commerce Clause violation
because the challenged laws do not impermissibly
discriminate against out-of-state producers, and
Section 2 of the Twenty-first Amendment permits
Missouri's restrictions on out-of-state retailers. The
court rejected Cordes's individual licensee claim
because the Privileges and Immunities Clause does not
apply to the occupation of selling alcohol. Sarasota
appeals, arguing inter alia that the district court's
reliance on our interpretation of Granholm in Southern
Wine was rejected in the Supreme Court's supervening
decision in Tennessee Wine. In light of Tennessee Wine,
Sarasota argues, we should reconsider the holding in
Southern Wine, “issue a new opinion consistent with”
Tennessee Wine, and remand with directions “to
determine whether the Missouri residency rule being
contested is constitutional under the new standard.”
II. Standing
The Officials moved to dismiss Sarasota's Amended
Complaint for lack of standing as well as on the merits.
The district court concluded the Sarasota plaintiffs
adequately pleaded standing but dismissed their
claims for failure to state a claim upon which relief can
be granted. See FED. R. CIV. P. 12(b)(6). On appeal, the
Officials challenge each plaintiff's standing to assert
Commerce Clause and Privileges and Immunities
Clause claims. Article III standing is a threshold
jurisdictional inquiry that we review de novo. See
Jones v. Gale, 470 F.3d 1261, 1265 (8th Cir. 2006), cert.

8a
denied, 549 U.S. 1328, 127 S.Ct. 1912, 167 L.Ed.2d 577
(2007). To establish standing, plaintiffs must show that
they: “(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant,
and (3) that is likely to be redressed by a favorable
judicial decision.” Kuhns v. Scottrade, Inc., 868 F.3d
711, 716 (8th Cir. 2017) (citation omitted). At the
pleading stage, they can meet this burden with
“general factual allegations” that satisfy these three
elements. Wieland v. U.S. Dep't of Health & Hum.
Servs., 793 F.3d 949, 954 (8th Cir. 2015) (citation
omitted). We accept as true all factual allegations in
the Amended Complaint and draw all reasonable
inferences in favor of the nonmoving party. Id. at 953.
Though the district court logically focused on the
injury-in-fact element of standing, the Officials argue
on appeal that plaintiffs also failed to satisfy the
traceability and redressability elements. “An injury is
fairly traceable to a challenged statute when there is a
causal connection between the two.” Alexis Bailly
Vineyard, Inc. v. Harrington, 931 F.3d 774, 779 (8th
Cir. 2019) (quotation omitted). Redressability turns on
whether a “favorable judicial decision” would remedy
the alleged injury. Lujan v. Defenders of Wildlife, 504
U.S. 555, 561, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992).
To show injury in fact, plaintiffs must allege an
injury that is “concrete and particularized” and “actual
or imminent, not conjectural or hypothetical.” Id. at
560, 112 S.Ct. 2130. In our view, this element does not
require extended analysis. Sarasota alleges that
Sarasota Wine is prohibited from selling, delivering, or
shipping wine from its out-of-state inventory to its
Missouri customers because it is “not eligible for a

9a
Missouri off-premises [retail] license.” Cordes, a
Florida resident, alleges that he is unable “to practice
his profession as a wine merchant in Missouri” because
Missouri law prevents him from delivering out-of-state
wines to Missouri customers who reside in Florida part
of the year. As the Supreme Court said in Bacchus
Imports, Ltd. v. Dias, “the [plaintiff liquor] wholesalers
are surely entitled to litigate whether the
discriminatory tax has had an adverse competitive
impact on their business.” 468 U.S. 263, 267, 104 S.Ct.
3049, 82 L.Ed.2d 200 (1984); see Alexis Bailly Vineyard,
931 F.3d at 777-79.
Likewise, Schlueter and French have standing to
challenge this aspect of the Missouri Liquor Control
Act. Commerce Clause standing is not limited to the
nonresident victims of discriminatory state laws. It
extends to in-state customers who suffer economic
injury, such as higher prices, caused by discriminatory
laws. See General Motors Corp. v. Tracy, 519 U.S. 278,
286-87, 117 S.Ct. 811, 136 L.Ed.2d 761 (1997)
(collecting cases); Bacchus Imps., 468 U.S. at 267, 104
S.Ct. 3049. Schlueter and French allege that Missouri
law prevents them from purchasing wines not
available in Missouri retail stores; Sarasota Wine and
other out-of-state retailers refuse to ship wine into
Missouri because of Missouri's liquor laws, and
Schlueter and French “cannot afford the time and
expense of traveling to out-of-state retailers to
purchase a few bottles of rare wine and personally
transport them home.” This is alleged economic injury,
whatever one might think of the severity of the injury.
See Freeman v. Corzine, 629 F.3d 146, 154-57 (3d Cir.
2010).

10a
The Officials argue that Sarasota Wine and Cordes
lack injury in fact because they never applied for
Missouri retail liquor licenses they would be able to
obtain.6 But a Missouri retail liquor licensee must
comply with conditions that Sarasota Wine and Cordes
are unwilling to meet -- a licensee must operate a retail
store in Missouri, MO. REV. STAT. §§ 311.220.3,
311.240.3, MO. CODE REGS. ANN. tit. 11, § 70-2.120;
must be a resident individual licensee or have a
resident corporate managing officer, MO. REV. STAT. §
311.060.1; and must purchase liquor exclusively from
Missouri licensed wholesalers, MO. REV. STAT. §
311.280.1. Compliance with these conditions would
frustrate the relief Sarasota seeks in this lawsuit -- the
ability to ship wine purchased outside Missouri from
their Florida inventories direct to Missouri consumers.
Although the Officials argue this establishes lack of the
redressability needed for Article III standing, we think
it goes to the merits of Sarasota's broad-scale attack on
the Missouri Liquor Control Act. Cf. Sporhase v. Neb.
ex rel. Douglas, 458 U.S. 941, 944 n.2, 102 S.Ct. 3456,
73 L.Ed.2d 1254 (1982). We reject the Officials’
argument that Sarasota challenges only the restriction
on obtaining direct retailer shipping permits issued
under § 311.060.1. The Amended Complaint expressly
seeks a judgment “declaring Missouri's statutory
6

In this regard, the Officials note that out-of-state corporations such as Walmart and Total Wine have obtained
retailer liquor licenses because the residency requirement
only requires that the “managing officer” be a Missouri
resident. Missouri regulations define managing officer to be
“either an officer or an employee with the general control
and superintendence.” MO. CODE REGS. ANN. tit. 11, §
70-2.030(7).

11a
scheme that prohibits out-of-state retailers from
selling, delivering and shipping wine directly to a
Missouri consumer, including REV. STAT. MO. §
311.060, unconstitutional” under the Commerce
Clause. Plaintiffs have standing to challenge these
laws under the Commerce Clause.
Though a closer question, we also conclude the
allegations in the Amended Complaint are sufficient at
this stage of the proceedings to show that Cordes as an
individual plaintiff has standing to challenge these
Missouri Liquor Control Act provisions under the
Privileges and Immunities Clause. Natural persons,
but not corporations, may invoke the protections of this
Article IV provision. See W. & S. Life Ins. Co. v. State
Bd. of Equalization of Cal., 451 U.S. 648, 656, 101
S.Ct. 2070, 68 L.Ed.2d 514 (1981). The same basic
elements of standing apply to claims under this Clause.
See Council of Ins. Agents & Brokers v.
Molasky-Arman, 522 F.3d 925, 931 (9th Cir. 2008).
The Officials argue that Cordes, who owns and
operates Sarasota Wine, lacks standing to assert this
claim because his alleged injury “flows directly and
solely from the alleged injury to [Sarasota Wine],
which is not constitutionally cognizable.” Chance
Mgmt., Inc. v. South Dakota, 97 F.3d 1107, 1116 (8th
Cir. 1996) (quotation omitted). We disagree. The
Amended Complaint alleges that Missouri's liquor
laws, by preventing Cordes from completing wine sales
to Missouri customers, damage his practice of a trade
-- wine merchant and consultant. That distinguishes
the Amended Complaint from the summary judgment
record in Chance Management, where the corporate
shareholder plaintiff did not allege denial of a personal

12a
economic interest arguably protected by the Privileges
and Immunities Clause. See Molasky-Arman, 522 F.3d
at 929, 932.
III. Commerce Clause Claims
The Commerce Clause grants Congress the power
to “regulate Commerce ... among the several States.”
The Supreme Court interprets this Clause as including
a “dormant” limitation on the States’ power to enact
“laws that unduly restrict interstate commerce.” Tenn.
Wine, 139 S. Ct. at 2459 (collecting cases). “This
negative aspect of the Commerce Clause prevents the
States from adopting protectionist measures and thus
preserves a national market for goods and services.” Id.
(cleaned up).
Section 2 of the Twenty-first Amendment allows
States to regulate the “transportation or importation ...
for delivery or use therein of intoxicating liquors.” The
Supreme Court initially interpreted Section 2 as
conferring broad powers on the States to regulate
alcohol within their borders, including laws and
regulations discriminating against out-of-state alcohol
interests that the dormant Commerce Clause would
normally forbid. See Granholm, 544 U.S. at 485-86, 125
S.Ct. 1885. But over time, the Court held in a series of
cases that Section 2 does not authorize States to take
actions that violate other constitutional provisions,
such as the Free Speech Clause, Equal Protection
Clause, and -- relevant to this appeal -- the Commerce
Clause. Id. at 486-87, 125 S.Ct. 1885 (collecting cases).
In two recent decisions, the Court recognized “that
the three-tiered distribution system itself is
‘unquestionably legitimate.’ ” Granholm, 544 U.S. at

13a
489, 125 S.Ct. 1885, quoting North Dakota v. United
States, 495 U.S. 423, 432, 110 S.Ct. 1986, 109 L.Ed.2d
420 (1990) (plurality opinion), and citing id. at 447,
110 S.Ct. 1986 (Scalia, J., concurring); see Tenn. Wine,
139 S. Ct. at 2471 (“At issue in the present case is not
the basic three-tiered model of separating producers,
wholesalers, and retailers, but the
durational-residency requirement ... impose[d] on new
applicants for liquor store licenses.”). These cases also
established that the ways in which a State implements
its three-tiered system are not immune from dormant
Commerce Clause scrutiny. The question in a
particular case is “whether the principles underlying
the Twenty-first Amendment are sufficiently
implicated ... to outweigh the Commerce Clause
principles that would be otherwise be offended.”
Bacchus Imps., 468 U.S. at 275, 104 S.Ct. 3049; see
Granholm, 544 U.S. at 488, 125 S.Ct. 1885. Courts
must take into account a State's valid interests in
regulating alcohol, such as promoting responsible
consumption, preventing underage drinking, and
collecting taxes. But economic protectionism “is not
such an interest.” Tenn. Wine, 139 S. Ct. at 2469.
In Granholm, the Court held that Michigan and
New York laws allowing in-state wine producers to
ship directly to consumers while prohibiting or making
impractical direct sales by out-of-state wineries
violated the Commerce Clause. Though the
three-tiered system is “unquestionably legitimate,” the
Court concluded, this discrimination against
out-of-state producers “is contrary to the Commerce
Clause and is not saved by the Twenty-first
Amendment.” 544 U.S. at 489, 125 S.Ct. 1885. The

14a
States in Granholm failed to show that the
discriminatory direct-shipping restrictions advanced a
valid local purpose that could not be served by
nondiscriminatory alternatives. In these
circumstances, “[i]f a State chooses to allow direct
shipment of wine, it must do so on evenhanded terms.”
Id. at 493, 125 S.Ct. 1885.
In Southern Wine, a Florida corporation challenged
the Missouri law requiring officers and directors of a
licensed liquor wholesaler to be bona fide Missouri
residents for at least three years. 731 F.3d at 802-03;
see MO. REV. STAT. § 311.060.3. Interpreting
Granholm, the most recent and explicit Supreme Court
precedent, we noted that the state laws at issue in that
case “worked to exempt in-state wineries -- but not
their out-of-state competitors -- from distributing their
wines through wholesalers.” Id. at 806. By contrast,
Missouri's three-year residency requirement for
in-state wholesalers “does not discriminate against
out-of-state liquor products or producers.” Id. at 810.
We observed that Granholm confirmed that it is
“beyond question that States may require wholesalers
to be ‘in-state’ without running afoul of the Commerce
Clause,” because in Granholm “the Court cited the
‘in-state wholesaler’ in connection with the very
sentence affirming that ‘the three-tier system itself is
unquestionably legitimate.’ ” Id. Thus, “[i]nsofar as
Granholm imported a balancing approach to
regulations of the three-tier system ... it drew a bright
line between the producer tier and the rest of the
system.” Id. Moreover, we concluded, even if
wholesaler restrictions do not enjoy “protected” status
under Granholm, Missouri's three-year residency

15a
requirement “passes muster” under the Twenty-first
Amendment because the Legislature “legitimately
could believe” that the requirement serves valid
health, safety, and regulatory interests. Id. at 810-11.
In Tennessee Wine, a trade association of in-state
liquor stores challenged a Sixth Circuit decision
striking down a two-year residency requirement for
individuals and corporate officers seeking an in-state
retailer license. The Supreme Court granted certiorari
to address “disagreement among the Courts of Appeals
about how to reconcile our modern Twenty-first
Amendment and dormant Commerce Clause
precedents.”139 S. Ct. at 2459. The Court first
“reiterate[d] that the Commerce Clause by its own
force restricts state protectionism,” and that Section 2
of the Twenty-first Amendment “must be viewed as one
part of a unified constitutional scheme.” Id. at 2461-62.
The Court then rejected the argument that the
Commerce Clause nondiscrimination principle which
it applied in Granholm to out-of-state alcohol products
and producers does not apply to “state laws that
regulate in-state alcohol distribution.” Id. at 2470-71.
Rather, “[a]lthough Granholm spoke approvingly of
[the basic three-tiered] model, it did not suggest that §
2 sanctions every discriminatory feature that a State
may incorporate into its three-tiered scheme.” Id. at
2471. Applying the Commerce Clause more broadly
than some Courts of Appeals, the Court held that
Section 2:
allows each State leeway to enact the
measures that its citizens believe are
appropriate to address the public health and
safety effects of alcohol use and to serve other

16a
legitimate interests, but it does not license the
States to adopt protectionist measures with no
demonstrable connection to those interests.
Id. at 2474. Applying that standard, the Court
concluded the two-year residency requirement “violates
the Commerce Clause and is not saved by the
Twenty-first Amendment” because its “predominant
effect ... is simply to protect the Association's members
from out-of-state competition.” Id. at 2476.
Without question, Tennessee Wine overruled one of
the alternative grounds on which we upheld the
three-year wholesaler residency requirement in
Southern Wine when it held that the Commerce Clause
prohibition of protectionist measures applies to all
three tiers of a three-tiered system. Tennessee Wine did
not explicitly overrule Southern Wine’s alternative
ground -- that Missouri's three-year residency
requirement “passes muster” because it “serves valid
health, safety, and regulatory interests.” But the Court
invalidated Tennessee's two-year durational residency
requirement for individuals seeking initial retail
licenses, concluding -- on a summary judgment record
-- that it was an invalid “protectionist measure”
because “the 2-year residency requirement [is] ill
suited to promote responsible sales and consumption
practices” and “there are obvious alternatives that
better serve that goal without discriminating against
nonresidents.” 139 S. Ct. at 2474, 2476. In affirming
the Sixth Circuit, see Byrd v. Tenn. Wine & Spirits
Retailers Ass'n, 883 F.3d 608, 622-23 (6th Cir. 2018),
the Supreme Court cited favorably a prior Fifth Circuit
decision invalidating durational residency
requirements, Cooper v. McBeath, 11 F.3d 547 (5th Cir.

17a
1994) (one and three year residency requirements to
acquire a nightclub's “mixed beverage permit”). Tenn.
Wine, 139 S. Ct. at 2475. In Southern Wine, we noted
the nonresident applicant “did not raise this
protectionist-intent argument in the district court.” 731
F.3d at 807. Presumably, if a future out-of-state
applicant for a Missouri in-state wholesaler license
does make a properly supported claim of protectionism,
Tennessee Wine will require a fresh look at the
Twenty-first Amendment issue.
However, that conclusion does not resolve the
Commerce Clause issue in this case, because Sarasota
Wine and Cordes are not applicants for an in-state
Missouri liquor license challenging a durational
residency requirement. Rather, they challenge
Missouri's requirements that licensed liquor retailers
be residents of Missouri, have a physical presence in
the State, and purchase liquor sold in the State from
licensed in-state wholesalers. Under Sarasota's
interpretation of the Commerce Clause, if Florida
allowed Sarasota Wine to be acquired or controlled by
one or more wine producers, Missouri would be
compelled to permit alcohol sales and deliveries into
Missouri by a twenty-first century version of the tied
house.
The licensing requirements and restrictions at
issue have been consistently upheld, before and after
Granholm and Tennessee Wine, as essential to a
three-tiered system that is “unquestionably
legitimate.” See Byrd, 883 F.3d at 623 (“requiring
wholesaler or retailer businesses to be physically
located within Tennessee may be an inherent aspect of
a three-tier system”); Cooper v. Tex. Alcoholic Beverage

18a
Comm'n, 820 F.3d 730, 743 (5th Cir.) (distinctions
between in-state and out-of-state retailers and
wholesalers are permissible “if they are an inherent
aspect of the three-tier system.”), cert. denied sub nom.,
Tex. Package Stores Ass'n v. Fine Wine & Spirits of N.
Tex., –– U.S.––, 137 S. Ct. 494, 196 L.Ed.2d 404 (2016);
Wine Country Gift Baskets.com v. Steen, 612 F.3d 809,
818-20 (5th Cir. 2010) (“Because of Granholm and its
approval of three-tier systems, we know that Texas
may authorize its in-state, permit-holding retailers to
make sales and may prohibit out-of-state retailers from
doing the same.... [D]iscrimination that would be
questionable, then, is that which is not inherent in the
three-tier system itself.... [A] beginning premise is that
wholesalers and retailers may be required to be within
the State.”), cert. denied, 562 U.S. 1270, 131 S.Ct.
1602, 179 L.Ed.2d 499 (2011); Arnold's Wines, 571 F.3d
at 191 (“Requiring out-of-state liquor to pass through
a licensed in-state wholesaler and retailer ... mandates
that both in-state and out-of-state liquor pass through
the same three-tier system before ultimate delivery to
the consumer.”); Brooks v. Vassar, 462 F.3d 341, 352
(4th Cir. 2006) (challenging the requirement that
out-of-state retailers sell through Virginia's three-tier
system “is nothing different than an argument
challenging the three tier system itself,” which
Granholm upheld as “unquestionably legitimate.”).
In Lebamoff Ents. Inc. v. Whitmer, 956 F.3d 863
(6th Cir. 2020), cert. denied, – U.S. –, – S.Ct. –, –
L.Ed.2d –, 2021 WL 78088, 2021 U.S. LEXIS 414
(2021), the Sixth Circuit again took up these issues
after the decision in Tennessee Wine affirming its
durational residency decision in Byrd. This time, the

19a
court rejected a Commerce Clause challenge by an
Indiana wine retailer and several Michigan wine
consumers to an amendment of the Michigan Liquor
Control Code allowing in-state retailers to deliver
direct to consumers using licensed “facilitators” or
common carriers. The court noted the Supreme Court
in Granholm said that nothing stops the States from
“funnel[ing] sales through the three-tier system” that
is “unquestionably legitimate.” Courts also have
permitted States “to regulate wholesalers (the second
tier) ... to control the volume of alcohol sold in a State
and the terms on which it is sold,” and have “require[d]
retailers to be physically based in the State.” Id. at
869-70, citing Southern Wine and other cases. The
court then framed the issue that is also presented in
this case:
All of this leaves a narrow question. If Michigan
may have a three-tier system that requires all
alcohol sales to run through its in-state
wholesalers, and if it may require retailers to
locate within the State, may it limit the delivery
options created by the new law to in-state
retailers? The answer is yes.
Id. at 870. After reviewing prior decisions such as
Bridenbaugh, Arnold's Wines, and Steen, the court
observed:
there is nothing unusual about the three-tier
system, about prohibiting direct deliveries from
out of state to avoid it, or about allowing in-state
retailers to deliver alcohol within the State.
Opening up the State to direct deliveries from
out-of-state retailers necessarily means opening it

20a
up to alcohol that passes through out-of-state
wholesalers or for that matter no wholesaler at all.
That ... create[s] a sizeable hole in the three-tier
system .... leav[ing] too much room for out-of-state
retailers to undercut local prices and to escape the
State's interests in limiting consumption.... That
Michigan permits direct deliveries by in-state
retailers .... is nothing new.... Anyone who wishes
to join them can get a Michigan license and face
the regulations that come with it.
Id. at 872-73. The court concluded that “[t]he purpose
of the [three-tiered] system, for better or worse, is to
make it harder to sell alcohol by requiring it to pass
through regulated in-state wholesalers.... [This] seems
far afield from the tied-saloon system that the
three-tier system was designed to replace.... But the
Twenty-first Amendment leaves these considerations
to the people of Michigan, not to federal judges.” Id. at
875.
We agree with the Sixth Circuit that Tennessee
Wine does not require us to reverse and remand in this
case. In Tennessee Wine, the Court invalidated a
durational residency requirement that “is not an
essential feature of a three-tiered scheme.” 139 S. Ct.
at 2471. The Court expressly distinguished between
the two-year residency requirement at issue and a
State's requirement that retail liquor stores be
physically located within the State. See 139 S. Ct. at
2475. By contrast, Sarasota without question attacks
core provisions of Missouri's three-tiered system that
the Court again described as “unquestionably
legitimate.”

21a
There are passages in the Tennessee Wine opinion
that may forecast a future decision that retailer or
wholesaler residency or physical presence
requirements, or the mandate to purchase only from
in-state wholesalers, are subject to an evidentiary
weighing to determine “[h]ow much public health and
safety benefit must there be to overcome this Court's
worries about protectionism ‘predominating.’ ” 139 S.
Ct. at 2484 (Gorsuch, J., dissenting). These
requirements are likely to impose greater costs than
would otherwise be incurred by an out-of-state retailer
selling to Missouri consumers. But Missouri imposes
the same licensing requirements on in-state and
out-of-state retailers. Viewed from this perspective,
laws establishing a three-tiered distribution system
may be economically and socially anachronistic, but
they do not discriminate against out-of-state retailers
and wholesalers. See Bridenbaugh, 227 F.3d at 853
(“Every use of § 2 could be called ‘discriminatory’ ...
because every statute limiting importation leaves
intrastate commerce unaffected. If that were the sort
of discrimination that lies outside state power, then §
2 would be a dead letter.”).
The Missouri laws at issue in this case are an
essential feature of its three-tiered scheme, and the
rules governing direct shipments of wine to Missouri
consumers apply evenhandedly to all who qualify for a
Missouri retailers license. “States should have
considerable leeway in analyzing local evils and in
prescribing appropriate cures.” United Bldg. & Constr.
Trades Council v. Mayor & Council of Camden, 465
U.S. 208, 223, 104 S.Ct. 1020, 79 L.Ed.2d 249 (1984).
Given that Section 2 of the Twenty-first Amendment is

22a
a constitutional command, the Supreme Court may
ultimately decide that it “is ill suited to the judicial
function” to conduct a rigorous Commerce Clause
inquiry into whether a state law that comprises an
essential element of its three-tiered distribution system
is a protectionist measure with no demonstrable
connection to valid Section 2 interests. CTS Corp. v.
Dynamics Corp. of Am., 481 U.S. 69, 95, 107 S.Ct.
1637, 95 L.Ed.2d 67 (1987) (Scalia, J., concurring). We
conclude we should be no more invasive of the
“unquestionably legitimate” three-tiered system than
the Supreme Court has mandated. Accordingly, we
agree with the district court that Sarasota's Amended
Complaint failed to state viable dormant Commerce
Clause claims.
IV. The Privileges and Immunities Clause Claim
Cordes argues that these Missouri liquor laws
violate the Privileges and Immunities Clause, which
provides: “The Citizens of each State shall be entitled
to all Privileges and Immunities of Citizens in the
several States.” U.S. Const., art. IV, § 2, cl. 1. This
Clause “protects the right of citizens to ply their trade,
practice their occupation, or pursue a common calling,”
McBurney v. Young, 569 U.S. 221, 226, 133 S.Ct. 1709,
185 L.Ed.2d 758 (2013), in another State “on terms of
substantial equality with the citizens of that State.”
Sup. Ct. of N.H. v. Piper, 470 U.S. 274, 280, 105 S.Ct.
1272, 84 L.Ed.2d 205 (1985). “There is scant precedent
considering the interaction of the Privileges and
Immunities Clause and the Twenty-first Amendment.”
Lebamoff Ents., Inc. v. Rauner, 909 F.3d 847, 857 (7th
Cir. 2018). “[N]o prior case in this or any other circuit
has found a state regulation of alcohol violated the

23a
Privileges and Immunities Clause.” Whitmer, 956 F.3d
at 876.
Like the Commerce Clause, the Privileges and
Immunities Clause “was intended to create a national
union.” Piper, 470 U.S. at 280, 105 S.Ct. 1272. “[T]he
Clause does not require that a State tailor its every
action to avoid any incidental effect on out-of-state
tradesmen.” McBurney, 569 U.S. at 229, 133 S.Ct.
1709. Nor does the Clause “preclude discrimination
against nonresidents where (i) there is a substantial
reason for the difference in treatment; and (ii) the
discrimination practiced against nonresidents bears a
substantial relationship to the State's objectives.”
Piper, 470 U.S. at 284, 105 S.Ct. 1272. “[T]the court
has struck laws down as violating the privilege of
pursuing a common calling only when those laws were
enacted for the protectionist purpose of burdening
out-of-state entities.” McBurney, 569 U.S. at 227, 133
S.Ct. 1709.
Viewed from this perspective, we think it apparent
the district court properly dismissed Cordes's
Privileges and Immunities Clause claim, regardless
whether the trade or occupation of selling alcohol is a
“fundamental” privilege. Selling alcohol to consumers
is a lawful occupation in Missouri, provided the retailer
obtains a license and complies with the applicable
regulations. See MO. REV. STAT. § 311.060.1. Section
311.060.1 requires all licensees, residents and
nonresidents alike, to become a Missouri voter and
taxpayer, in other words reside in Missouri, to engage
in the privilege of practicing that calling. Is that
“discrimination” against nonresidents, or simply an
“incidental effect” of regulatory requirements? As the

24a
Sixth Circuit noted in Whitmer, “[t]o sell alcohol in
Michigan, [Indiana retailers] simply have to play by
the Michigan rules -- just as they have to do in
Indiana.” 956 F.3d at 876. It is not impossible for
Cordes to obtain an individual Missouri retailer
license, but to be eligible, he must move to Missouri,
which he will not do. Nor is he willing to form a
personal LLC, establish a physical presence in
Missouri with a resident “managing officer,” and obtain
a retailers license in the name of that company.
Even if Missouri does “discriminate” against
nonresidents by requiring liquor licensees to reside in
Missouri, such discrimination is permissible if it is not
protectionist, that is, if there is a substantial reason for
the economic burden the license requirements place on
nonresidents, and the burden bears a substantial
relationship to the State's legitimate objectives. Here,
as we explained in Part III, the licensing restrictions
that Cordes is unwilling to meet are essential to
Missouri's implementation of its authority under
Section 2 of the Twenty-first Amendment -- a
three-tiered system for regulating the “transportation
or importation” of intoxicating liquors “for delivery or
use” in the State. Until the Supreme Court concludes
that essential elements of the three-tiered system are
not protected from dormant Commerce Clause
challenge, an individual nonresident's challenge under
the Privileges and Immunities Clause likewise fails to
state a claim.
V. Conclusion
As our Seventh Circuit colleague David Hamilton
has observed, “the three-tier distribution system [is] a

25a
model that may seem to have less and less value as the
internet and e-commerce flatten the global
marketplace. Yet the extraordinary constitutional
status given to state alcoholic beverage laws in the
Twenty-first Amendment was the compromise that
allowed the repeal of Prohibition.” Lebamoff Ents., Inc.
v. Huskey, 666 F.3d 455, 472 (7th Cir. 2012) (Hamilton,
J., concurring). We agree with the Sixth Circuit that
the Supreme Court in Granholm and Tennessee Wine
did not decide that essential elements of the
three-tiered system are subject to frontal attack under
the dormant Commerce Clause or the Privileges and
Immunities Clause. Therefore, those seeking a more
consumer-oriented organization of alcohol industries
must “turn to state-by-state political action on behalf
of consumers who are hurt by these laws.” Id.
The judgment of the district court is affirmed.

26a
APPENDIX B. Opinion of the U. S. District Court
for the Eastern District of Missouri [Filed March
29, 2019].
No. 4:17-cv-02792
Sarasota Wine Market, LLC, et al.
Plaintiffs,
v.
Michael L. Parson, et al.
Defendants
OPINION, MEMORANDUM AND ORDER
Henry Edward Autrey, United States District Judge
This matter is before the Court on Defendants'
Motion to Dismiss Plaintiffs' Amended Complaint [Doc.
No. 37] under Federal Rules of Civil Procedure 12(b)(1)
and 12(b)(6). Plaintiffs oppose the Motion. The Motion
has been fully briefed. For the reasons set forth below,
Defendants' Motion is GRANTED.
Facts and Background
Plaintiffs brought this case pursuant to 42 U.S.C.
§ 1983, challenging the constitutionality of Missouri's
Liquor Control Law, Chapter 311 RSMo (“Liquor
Control Law”).
Like many states, Missouri “funnels liquor sales
through a tier system, separating the distribution
market into discrete levels.” Southern Wine and Spirits
of Am., Inc. v. Division of Alc. & Tobacco Control, 731
F.3d 799, 802 (8th Cir. 2013). The first tier “consists of
producers, such as brewers, distillers, and
winemakers.” Id. The second tier “is comprised of

27a
solicitors, who acquire alcohol from producers and sell
it ‘to, by or through’ wholesalers.” Id. The third tier “is
made up of wholesalers, who purchase alcohol from
producers and solicitors and sell it to retailers.” Id. The
fourth tier – and the tier at issue in this case –
“consists of retailers, who sell alcohol to consumers.”
Id. This multi-tiered system for controlling the
distribution and sale of alcohol to Missouri residents is
permitted by the Twenty-First Amendment to the
United States Constitution, which grants states
“virtually complete control over whether to permit
importation or sale of liquor and how to structure the
liquor distribution system.” Id. (quoting Cal.Retail
Liquor Dealers Ass'n v. Midcal Aluminum, Inc., 445
U.S.97, 110, 100 S.Ct. 937, 63 L.Ed.2d 233 (1980)).
Missouri implements its multi-tier system through
its Liquor Control Law. The Liquor Control Law
prohibits “any person, firm, partnership, or
corporation” from selling alcoholic beverages in
Missouri “without taking a license.” § 311.050 RSMo.
To obtain a license, an applicant must demonstrate
“good moral character” and establish that he/she is “a
qualified legal voter and taxpaying citizen of the
county, town, city or village” to be served. § 311.060.1
RSMo. These requirements apply to the managing
officer of any corporation seeking a license. Id.
Defendants previously filed a Motion to Dismiss
Plaintiffs' Complaint, which was granted for lack of
standing under Rule 12(b)(1). Plaintiffs filed their
Amended Complaint, followed by Defendants' filing of
the instant Motion to Dismiss.

28a
Plaintiffs'
following:1

Amended

Complaint

alleges

the

Plaintiff Michael Schlueter is a Missouri resident
who would purchase wine from out-of-state retailers
and have it shipped to his Missouri home, if Missouri
law permitted him to do so. Plaintiff Terrence French
us a Missouri Resident who has been refused sales of
wine by out-of-state retailers due to Missouri's Liquor
Control Law that bans out-of-state sales, shipments,
and delivery of wine from out-of-state sources.
Plaintiff Sarasota Wine Market, LLC d/b/a
Magnum Wine and Tastings (“Magnum Wine”) is a
Florida Limited Liability Company that operates a
retail wine store in Sarasota, Florida. Magnum Wine
has received requests that it sell and ship wine to
Missouri, but is unable to do so legally. It intends to
sell and ship wines directly to consumers in Missouri
if the laws prohibiting such sales and shipments are
removed or declared unconstitutional. Plaintiff Heath
Cordes is a citizen of Florida who works as a
professional wine consultant, advisor, and merchant.
Cordes owns and operates Magnum Wine. Plaintiffs
intend to pay all taxes due on interstate wine sales and
shi pm e nt s, and comply with a l l ot her
non-discriminatory state regulations, including
obtaining licenses.

1

The recitation of facts is taken from Plaintiffs' Amended Complaint and is set forth for the purposes of the
pending motion to dismiss.

29a
Defendants Missouri Governor Michael L. Parson,
Missouri Attorney General Eric Schmitt2, and Acting
Supervisor of the Missouri Department of Public
Safety, Division of Alcohol & Tobacco Control Keith
Hendrickson are all sued in their official capacities.
In the State of Missouri, a resident wine retailer
can obtain a license from Defendants which allows it to
sell, deliver, and ship by common carrier directly to
Missouri consumers any wine that it has in its
inventory. A Missouri wine retailer may obtain wine
for resale from distributors, auction houses and private
collections. The Defendants will issue such an
off-premises retail license only to wine retailers located
in the State of Missouri. Magnum Wine is not located
in Missouri, is not eligible for a Missouri off-premises
license, and is prohibited by law from selling,
delivering or shipping wine from its inventory directly
to consumers in Missouri. No other Missouri license is
available to Magnum Wine and Tastings that would
allow it to sell, deliver, and ship wine from its
inventory to consumers in Missouri. It would obtain
such a license if one were available.
Plaintiff Schlueter has contacted several
out-of-state retailers either on the Internet or by phone
in order to buy wines he cannot find in Missouri. These
retailers include Magnum Wine, The Wine Library in
New Jersey, and Federal Wine & Spirits in Boston,

2

Effective January 3, 2019, Eric Schmitt is the Attorney
General of Missouri. Pursuant to Rule 25(d) of the Federal
Rules of Civil Procedure, Eric Schmitt is substituted for
former Attorney General Joshua D. Hawley as defendant in
this suit.

30a
Massachusetts. All of these retailers refused to sell and
ship their wines to Schlueter because of Missouri law.
Some wines that Schlueter wants to buy are not
available in retail stores in Missouri but are available
from retail stores in other states. Plaintiff French has
also attempted to purchase wine from out-of-state wine
retailers which claims he cannot obtain either in his
hometown or in Missouri and has been denied these
purchases.
Mangum Wine has been contacted by Schlueter
who has attempted to buy wine and have it shipped to
him in Missouri. Mangum has refused to complete this
order due to Missouri's ban on out-of-state retail sales,
shipments, and deliveries. Magnum Wine has lost
profit of its sale of wine to Schlueter and other
Missouri customers. Magnum Wine would obtain a
license to sell, ship and deliver its wine directly to
consumers in the State of Missouri if one were
available.
In the course of his business, Plaintiff Cordes
develops personal relationships with many of his
customers, makes special wine purchases for them,
consults with them about wine in person, by telephone
and by Internet, and sells and delivers wine to them.
Some of these customers live part of the year in Florida
and part of the year in Missouri. Cordes has received
requests from his customers to send wine to residents
of Missouri as gifts but was unable to ship the
specifically requested wines because the laws of
Missouri prevent him from doing so. Cordes wants to
practice his profession as a wine merchant in Missouri
by consulting with, obtaining wines for, and delivering
wines to Missouri residents, but is prevented from

31a
doing so by Missouri law. He has suffered economic
harm as a result. Mr. Cordes has not applied to
Missouri officials for a retail license because it would
be futile to do so since he is not a resident of Missouri
and residency is required for a retail wine dealer
permit. If a license were available to Cordes on terms
equivalent to those for Missouri citizens, he would
obtain it.
Plaintiffs' Complaint alleges that the portions of
Missouri's Liquor Control Law that allow in-state
retailers to ship wine to Missouri consumers while
prohibiting out-of-state retailers from doing the same
is unconstitutional for two reasons:
First, Plaintiffs contend that the disparate
treatment between in-state and out-of-state retailers
violates the Commerce Clause because it discriminates
against interstate commerce and protecting the
economic interest of local businesses by shielding them
from competition.
Second, Plaintiffs claim that the disparate
treatment between residents and nonresidents violates
the Privileges and Immunities Clause of Article IV of
the United States Constitution because Missouri bans
wine sales and deliveries by out-of-state merchants and
prohibits the issuance of licenses to nonresidents,
thereby denying Cordes the privilege to engage in his
occupation in the state upon the same terms as
Missouri citizens.
Plaintiffs seek declaratory and injunctive relief in
this matter.

32a
Defendants move to dismiss the Complaint
pursuant to Federal Rule of Civil Procedure 12(b)(1) for
lack of standing and Rule (12)(b)(6) for failure to state
a claim upon which relief may be granted. For their
12(b)(6) motion, Defendants contend that the
constitutional validity of Missouri's multi-tiered
approach to regulating liquor distribution and sale has
been upheld by the Eighth Circuit Court of Appeals in
Southern Wine, 731 F.3d 799.
Standard
“[I]f a plaintiff lacks standing, the district court has
no subject matter jurisdiction.” Faibisch v. University
of Minn., 304 F.3d 797, 801 (8th Cir. 2002). Therefore,
motions to dismiss for lack of standing fall under the
purview of Rule 12(b)(1), which permits a party to
move to dismiss a complaint for lack of subject matter
jurisdiction. Id. “Motions to dismiss for lack of
subject-matter jurisdiction can be decided in three
ways: at the pleading stage, like a Rule 12(b)(6)
motion; on undisputed facts, like a summary judgment
motion; and on disputed facts.” Jessie v. Potter, 516
F.3d 709, 712 (8th Cir. 2008). The parties do not rely
on matters outside the pleadings, therefore the Court
reviews Defendant's motion as a “facial attack” on
jurisdiction. In a facial attack, “the court restricts itself
to the face of the pleadings, and the non-moving party
receives the same protections as it would defending
against a motion under Rule 12(b)(6).” Carlsen v.
GameStop, Inc., 833 F.3d 903, 908 (8th Cir. 2016).
Under FED.R.CIV.P. 12(b)(6), a party may move to
dismiss a claim for “failure to state a claim upon which
relief can be granted.” To survive a Rule 12(b)(6)

33a
motion to dismiss, “a complaint must contain sufficient
factual matter, accepted as true, to state a claim to
relief that is plausible on its face.” Bell Atlantic Corp.
v. Twombly, 550 U.S. 544, 570, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007). A pleading that merely pleads
labels and conclusions or a formulaic recitation of the
elements of a cause of action, or naked assertions
devoid of further factual enhancement will not suffice.
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S.Ct. 1937,
173 L.Ed.2d 868 (2009).
A complaint must be liberally construed in the
light most favorable to the plaintiff. Eckert v. Titan
Tire Corp., 514 F.3d 801, 806 (8th Cir. 2006). Under
Rule 12(b)(6), the Court must accept plaintiff's factual
allegations as true and grant all reasonable inferences
in the plaintiff's favor. Phipps v. FDIC, 417 F.3d 1006,
1010 (8th Cir. 2005). Where the allegations show on
the face of the complaint there is some insuperable bar
to relief, dismissal under Rule 12(b)(6) is appropriate.
Benton v. Merrill Lynch & Co., 524 F.3d 866, 870 (8th
Cir. 2008).
Discussion
A. Standing
“Article III standing is a threshold question in
every federal court case.” United States v. One Lincoln
Navigator 1998, 328 F.3d 1011, 1013 (8th Cir. 2003).
The “irreducible constitutional minimum” of standing
consists of three elements. Spokeo, Inc. v. Robins, ––
U.S. ––, 136 S.Ct. 1540, 1547, 194 L.Ed.2d 635 (2016)
(citing Lujan v. Defenders of Wildlife, 504 U.S. 555,
560, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992) ). “The
plaintiff must have (1) suffered an injury in fact, (2)

34a
that is fairly traceable to the challenged conduct of the
defendant, and (3) that is likely to be redressed by a
favorable judicial decision.” Id. The Supreme Court has
explained that the injury in fact requirement means
showing “an invasion of a legally protected interest
which is (a) concrete and particularized and (b) actual
or imminent, not conjectural or hypothetical.” Lujan,
504 U.S. at 560, 112 S.Ct. 2130 (citations and
quotation omitted).
In their Amended Complaint, Plaintiffs adequately
plead standing. Schlueter and French each pled that
they have tried to order wine for delivery from
out-of-state retailers and been denied. They have also
pled that they can only obtain their desired wines from
out-of-state retailers. “[C]ognizable injury from
unconstitutional discrimination against interstate
commerce does not stop at members of the class
against whom a State ultimately discriminates, and
customers of that class may also be injured ...” Gen.
Motors Corp. v. Tracy, 519 U.S. 278, 286, 117 S.Ct.
811, 136 L.Ed.2d 761 (1997). As they have pled that
the wines they seek are unavailable for purchase in
Missouri, the only way for Schlueter and French to
engage in the interstate commerce they seek includes
added costs, or imminent economic injury. Schlueter
and French have standing to bring their Commerce
Clause claim. Magnum Wine has alleged lost profits
that resulted from their legal duty to decline orders
where the buyer requested wine be shipped to Missouri
residents. Magnum Wine has standing to bring this
action. Likewise, Cordes has adequately pled that he
has lost sales a result of their inability to ship wine
directly to Missouri residents. Plaintiffs' Amended

35a
Complaint establishes requisite standing to bring the
instant case.
B. Failure to State a Claim
Next, Defendants argue that Plaintiffs fail to state
a claim upon which relief can be granted. Plaintiffs
defend their positions, arguing that, at the very least,
the constitutionality of the Liquor Control Law as
applied to out-of-state retailers cannot be decided on a
Rule 12(b)(6) motion. The Court disagrees, and finds
that precedents set by the Supreme Court in Granholm
v. Heald, 544 U.S. 460, 125 S.Ct. 1885, 161 L.Ed.2d
796 (2005) and by the Eighth Circuit in Southern Wine,
731 F.3d 799 bar Plaintiffs' claims for relief.
1. Commerce Clause
Defendants argue that the Eighth Circuit “affirmed
the validity of Missouri's multi-tier approach to
regulating the distribution and sale of alcoholic
beverages” in Southern Wine, foreclosing Plaintiff's
claims. In Southern Wine, an out-of-state wholesaler
claimed that Missouri's statute requiring Missouri
residency for wholesaler corporations violated the
commerce clause and equal protection clause.3 The
issue before the Eighth Circuit, then, involved the
relationship between the Commerce Clause and the
Twenty-first Amendment. The Commerce Clause

3

The district court also rejected the plaintiffs' arguments that the Missouri statute violated the Privileges and
Immunities Clause. In doing so, the district court relied on
the same legal conclusions reached in its analysis of the
Commerce Clause claim. The Privileges and Immunities
claim was not addressed on appeal.

36a
generally prohibits state laws that “mandate
differential treatment of in-state and out-of-state
economic interests that benefits the former and
burdens the latter.” Granholm v. Heald, 544 U.S. 460,
472, 125 S.Ct. 1885, 161 L.Ed.2d 796 (2005) (quoting
Oregon Waste Systems, Inc. v. Department of
Environmental Quality of Ore., 511 U.S. 93, 99, 114
S.Ct. 1345, 128 L.Ed.2d 13 (1994) ). The Twenty-first
Amendment, however, provides that “[t]he
transportation or importation into any State, Territory,
or possession of the United States for delivery or use
therein of intoxicating liquors, in violation of the laws
thereof, is hereby prohibited,” U.S. Const. amend. XXI
§ 2, affording states some “prerogatives particular to
the regulation of alcohol,” Southern Wine, 731 F.3d at
804. In determining the appropriate relationship
between the Twenty-first Amendment and the
Commerce Clause in Southern Wine, the Eighth Circuit
relied on the Supreme Court's decision in Granholm v.
Heald, 544 U.S. 460, 125 S.Ct. 1885, 161 L.Ed.2d 796
(2005).
Granholm addressed two state laws that
essentially allowed in-state wineries to ship wine
directly to in-state residents, but prohibited
out-of-state wineries from doing the same. In holding
that the state laws were unconstitutional, the Supreme
Court emphasized that the Twenty-first Amendment
does not supersede the Commerce Clause. Id. at 486,
125 S.Ct. 1885. However, Granholm also upheld the
constitutionality of the states' tiered liquor distribution
systems under the Twenty-first Amendment. Id. at
488, 125 S.Ct. 1885. Therefore, the Supreme Court
limited the prohibition on interstate discrimination to

37a
the first tier of the liquor distribution system:
producers and products. As noted by the Eighth
Circuit, the second, narrower tier of wholesalers was
specifically mentioned as exempt from Granholm's
holding:
The three-tier system is “unquestionably
legitimate,” Granholm, 544 U.S. at 489, 125
S.Ct. 1885 (internal quotation omitted), and
that system includes the “licensed in-state
wholesaler.” Id. (quoting North Dakota [v.
Unites States], 495 U.S. [423] at 447, 110 S.Ct.
1986 [109 L.Ed.2d 420 (1990) ] (Scalia, J.,
concurring in the judgment) ).
Southern Wine, 731 F.3d at 809.
Moreover, the Supreme Court held that “State
policies are protected under the Twenty-first
Amendment when they treat liquor produced out of
state the same as its domestic equivalent.” Granholm,
544 U.S. at 489, 125 S.Ct. 1885 (emphasis added).
Accordingly, Southern Wine mandates “state policies
that define the structure of the liquor distribution
system while giving equal treatment to in-state and
out-of-state liquor products and producers ... are
‘protected’ against constitutional challenges based on
the Commerce Clause.” 731 F.3d at 809.
Plaintiffs argue that Southern Wine is inapposite,
and that dismissal on the pleadings in this case is
improper because the Eighth Circuit would have to
decide on the facts whether to extend its holding in
Southern Wine to retailers. However, the Eighth
Circuit expressly rejected that argument in Southern
Wine:

38a
Southern Wine contends that even after Granholm,
the constitutionality of residency requirements in the
wholesale tier depends on a case-specific balancing of
interests under the Commerce Clause and the
Twenty-first Amendment. Insofar as Granholm
imported a balancing approach to regulations of the
three-tier system, however, it drew a bright line
between the producer tier and the rest of the system.
The more natural reading of Granholm is the Second
Circuit's: “Because New York's three-tier system treats
in-state and out-of-state liquor the same, and does not
discriminate against out-of-state products or producers,
we need not analyze the regulation further under
Commerce Clause principles.” Arnold's Wines, 571 F.3d
at 191.
731 F.3d at 810. Plaintiffs do not allege and cannot
show that the challenged portions of Missouri's Liquor
Control Law provide differential treatment to in-state
and out-of-state products and producers. Because
Plaintiffs' claim concerns only the retailer tier of
Missouri's liquor control system, it is foreclosed by the
“bright line” between the producer tier and the rest of
the system described in Southern Wine.
Plaintiffs argue that the Eighth Circuit's statement
in Southern Wine that “[Granholm] drew a bright line
between the producer tier and the rest of the system”
is merely dictum that was unnecessary to the result in
Southern Wine and thus should not be treated as
binding authority. This argument is not well taken. In
Southern Wine, the Eighth Circuit provided a wealth of
reasoning that distinguishes discrimination against
products and producers from discrimination in the
other tiers of the liquor distribution system. See Id. at

39a
809-10.
The four-tier system is a legitimate exercise of
Missouri's power under the Twenty-first Amendment
to “maintain an effective and uniform system for
controlling liquor by regulating its transportation,
importation, and use,” including the ability to “funnel
sales through the [multi]-tier system.” Granholm, 544
U.S. at 484, 125 S.Ct. 1885. While the state laws in
Granholm failed to pass constitutional muster because
they discriminatorily allowed only in-state producers
to sidestep the tiered regulatory systems, the Missouri
statutes in question require that all alcohol sold
directly to consumers in Missouri by retailers pass
through Missouri's four-tier regulatory system
“funnel.” To allow out-of-state retailers to ship directly
to Missouri residents would not only burden in-state
retailers, who would have to operate within the
four-tier system while out-of-state retailers could
circumvent the Missouri regulatory system entirely, it
would also violate the Twenty-first Amendment by
undermining Missouri's “unquestionably legitimate”
system. Cf. Brooks v. Vassar, 462 F.3d 341, 352 (4th
Cir. 2006) (opinion of Niemeyer, J.) (“[A]n argument
that compares the status of an in-state retailer with an
out-of-state retailer—or that compares the status of
any other in-state entity under the three-tier system
with its out-of-state counterpart—is nothing different
than an argument challenging the three-tier system
itself.... [T]his argument is foreclosed by the
Twenty-first Amendment and the Supreme Court's
decision in Granholm[.]”).
The challenged statutes do not result in
discrimination between in-state and out-of-state

40a
producers or products, and they are legitimate
exercises of Missouri's authority under the
Twenty-first Amendment. Relying on the law of this
Circuit, therefore, the Amended Complaint fails to
state a Commerce Clause claim upon which relief can
be granted.
2. Privileges and Immunities Clause
Plaintiff Cordes is a “professional wine consultant,
advisor and merchant” who resides in and is a citizen
of Florida. Cordes states that because he is unable to
obtain a Missouri retail wine dealer license as a
non-Missouri resident, he is prevented from practicing
his profession of “consulting with, obtaining wines for,
and deliver[ing] wines to Missouri residents.” Cordes
claims that the Liquor Control Law thereby violates
the United States Constitution's Article IV Privileges
and Immunities Clause by “den[ying] Mr. Cordes the
privilege to engage in his occupation in the state upon
the same terms as Missouri citizens.”
Under the Privileges and Immunities Clause, “[t]he
Citizens of each State shall be entitled to all Privileges
and Immunities of Citizens in the several States.” U.S.
Const., Art. IV, § 2, cl. 1. The Supreme Court has
stated that:
The object of the Privileges and Immunities
Clause is to strongly constitute the citizens of
the United States as one people, by placing the
citizens of each State upon the same footing
with citizens of other States, so far as the
advantages resulting from citizenship in those
States are concerned. This does not mean, we
have cautioned, that state citizenship or

41a
residency may never be used by a State to
distinguish among persons.
McBurney v. Young, 569 U.S. 221, 226, 133 S.Ct. 1709,
185 L.Ed.2d 758 (2013) (internal citations and
quotations omitted). Whether differential treatment of
out-of-state residents violates the Privileges and
Immunities Clause involves a two-part inquiry: (1)
whether the state's law discriminates against
out-of-state residents with regard to a privilege or
immunity protected by the Clause, and (2) if so,
whether sufficient justification exists for the
discrimination. Minnesota ex rel. Hatch v. Hoeven, 456
F.3d 826, 834 (8th Cir. 2006) (citing United Bldg. &
Constr. Trades Council of Camden County & Vicinity v.
Mayor & Council of the City of Camden, 465 U.S. 208,
218, 221–23, 104 S.Ct. 1020, 79 L.Ed.2d 249 (1984) ).
Generally, the privilege of engaging in a trade,
business or occupation is protected by the Privileges
and Immunities Clause. McBurney, 569 U.S. at 227,
133 S.Ct. 1709. However, the privilege of engaging in
the occupation of selling alcohol is not protected by the
Privileges and Immunities Clause, due to the
Twenty-first Amendment's “broad grant of power to the
states ... to implement [multi]-tier liquor distribution
systems which disparately affect non-resident
wholesalers and retailers.” Southern Wine, 2012 WL
1934408, slip op. at *5 (W.D.Mo. May 29, 2012), aff'd,
731 F.3d 799 (8th Cir. 2013) (citing Steamers Service
Co. v. Wright, 505 S.W.2d 65, 68 (Mo.1974) (“the liquor
business does not stand upon the same plane, in the
eyes of the law, with other commercial occupations ...
and is thereby separated or removed from the natural
rights, privileges and immunities of the citizen.”) ).

42a
Because Cordes' specific occupation is subject to
limitations imposed by the Twenty-first Amendment,
his right to pursue it across state lines is not protected
by the Privileges and Immunities Clause. Therefore,
the court does not reach the “sufficient justification”
prong of the two-part inquiry. Minnesota ex rel. Hatch,
456 F.3d at 834. Accordingly, the Amended Complaint
fails to state a Privileges and Immunities Clause claim.
Conclusion
For the reasons stated above, Plaintiffs' Amended
Complaint fails to state a claim upon which relief could
be granted.
Accordingly,
IT IS HERBY ORDERED that the Defendant's
Motion to Dismiss Plaintiff's Amended Complaint [Doc.
No. 37] is GRANTED.

43a
APPENDIX C. U. S. Court of Appeals for the Eighth
Circuit, Order Denying Rehearing [Filed March 24,
2021].
No. 19-1948
Sarasota Wine Market, LLC, et al.
Appellants
v.
Eric S. Schmitt, Attorney General of Missouri, et. al.
Appellees

ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
Judge Gruender did not participate in the
consideration or decision of this matter.
March 24, 2021
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit
/s/ Michael E. Gans

44a
APPENDIX D. Missouri Rev. Stat., ch. 311.
§ 311.050. It shall be unlawful for any person, firm,
partnership or corporation to manufacture, sell or
expose for sale in this state intoxicating liquor, as
defined in section 311.020, in any quantity, without
taking out a license.
§ 311.060.1. No person shall be granted a license
hereunder unless such person is of good moral
character and a qualified legal voter and a taxpaying
citizen of the county, town, city or village, nor shall any
corporation be granted a license hereunder unless the
managing officer of such corporation is of good moral
character and a qualified legal voter and taxpaying
citizen of the county, town, city or village; and, except
as otherwise provided under subsection 7 of this
section, no person shall be granted a license or permit
hereunder whose license as such dealer has been
revoked, or who has been convicted, since the
ratification of the twenty-first amendment to the
Constitution of the United States, of a violation of the
provisions of any law applicable to the manufacture or
sale of intoxicating liquor, or who employs in his or her
business as such dealer any person whose license has
been revoked unless five years have passed since the
revocation as provided under subsection 6 of this
section, or who has been convicted of violating such law
since the date aforesaid; provided, that nothing in this
section contained shall prevent the issuance of licenses
to nonresidents of Missouri or foreign corporations for
the privilege of selling to duly licensed wholesalers and
soliciting orders for the sale of intoxicating liquors to,
by or through a duly licensed wholesaler, within this
state.

45a
§ 311.220.1. In addition to the permit fees and license
fees and inspection fees by this law required to be paid
into the state treasury, every holder of a permit or
license authorized by this law shall pay into the county
treasury of the county wherein the premises described
and covered by such permit or license are located, or in
case such premises are located in the City of St. Louis,
to the collector of revenue of said city, a fee in such
sum not in excess of the amount by this law required to
be paid into the state treasury for such state permit or
license, as the county commission, or the corresponding
authority in the City of St. Louis, as the case may be,
shall by order of record determine, and shall pay into
the treasury of the municipal corporation, wherein said
premises are located, a license fee in such sum, not
exceeding one and one-half times the amount by this
law required to be paid into the state treasury for such
state permit or license, as the lawmaking body of such
municipality, including the City of St. Louis may by
ordinance determine.
§ 311 240.1. On approval of the application and payment of the license tax provided in this chapter, the
supervisor of liquor control shall grant the applicant a
license to conduct business in the state for a term to
expire with the thirtieth day of June next succeeding
the date of such license. A separate license shall be
required for each place of business. Of the license tax
to be paid for any such license, the applicant shall pay
as many twelfths as there are months (part of a month
counted as a month) remaining from the date of the
license to the next succeeding July first.

